   BANCO POPULAR DID NOT ADEQUATELY ASSESS

BORROWER REPAYMENT ABILITY WHEN ORIGINATING

 HUNTINGTON LEARNING CENTER FRANCHISE LOANS





              Report Number: 11-16

             Date Issued: July 13, 2011





                   Prepared by the

             Office of Inspector General

         U.S. Small Business Administration

         u.s. Small Business
         Administration
                                                                          Memorandum
         Office Inspector General
   To:	 Grady Hedgespeth                                                                           Date:       July 13, 2011
        Director, Office of Financial Assistance
        lSI original signed
 From:	 John K. Needham

        Assistant Inspector General for Auditing


Subject:	 Banco Popular Did Not Adequately Assess Borrower Repayment Ability When
          Originating Huntington Learning Center Franchise Loans
          Report No. 11-16

         This report presents the results of our audit of Banco Popular's assessment
         of borrower repayment ability when originating Huntington Learning
         Center (HLC) franchise loans. We conducted the audit in response to a
         complaint alleging that lenders improperly originated Small Business
         Administration (SBA) guaranteed loans made to HLCs. The complaint,
         which identified potential violations of 7(a) loan program rules, alleged in
         part that lenders approved the loans based on inflated gross revenue
         projections submitted by loan brokers in SBA loan applications.
         Accordingly, our audit objective was to determine whether the
         complainant's lender, Banco Popular, adequately assessed borrower
         repayment ability when originating HLC franchise loans. During the
         course of the audit, we also noted that SBA's Loan Accounting System did
         not accurately reflect franchise loans. We have documented this condition
         in the Other Matters section of the report.

         To achieve our objective, we reviewed all 12 HLC loans approved by Banco
         Popular using Preferred Lender Program (PLP) procedures in fiscal year (FY)
         2007, the year that the complainant's loan was approved. 1 To determine if the
         lender met SBA's requirements for assessing the repayment ability of the
         companies, we reviewed SBA's procedures governing loan approval and
         examined loan documents in the lender's loan files. To determine if the
         projections supporting repayment ability were realistic, we compared revenue data

         1   Under the Preferred Lender Program, SBA delegates lenders the authority to process, close, service and liquidate SBA guaranteed
             loans without prior SBA review. An additional 10 companion loans were made by Banco Popular to HLCs using SBA Express loan
             procedures. These loans were small, with individual amounts ranging from $25,000 to $54,500.
                                                                                                                              2


upon which the lender's approval was based to revenue data in HLC Franchisor2
documents. We also interviewed a former representative of the Franchisor, the
complainant, other HLC franchise owners, and a representative of the lender.

We conducted our review between March 2010 and April 2011 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

RESULTS IN BRIEF

Banco Popular did not adequately assess repayment ability for 12 SBA-guaranteed
HLC franchise loans when approving the loans. Specifically, the lender accepted
umealistic projected annual revenue figures that ranged from $483,000 to
$650,025 as a basis for demonstrating the ability of the HLC franchises to repay
their debts. The lender disregarded relevant and available data, which indicated
that the franchises' revenue projections were umeasonable. This was due, at least
in part, to the lender's perception that franchise loans required a lesser degree of
due diligence because of the established business model of franchise systems.
Had the lender complied with SBA' s requirements to use and assess the feasibility
of realistic projections, the 12 loans should have been declined. As of December
2010, there were 10 loans, with an aggregated outstanding SBA balance of $2.1
million, 3 which had been transferred to liquidation.

We also noted that SBA's loan database did not accurately track franchise loans
guaranteed by the Agency. We tested 7 franchise brands among those with the
highest guaranty purchase 4 rates and number of franchise loans made as of
March 2010, and determined that the number of loans for these franchises was
inaccurately reported by an average of 17 percent. Program officials
acknowledged the limitations of the existing database and attributed the
discrepancies to lenders not entering the codes for franchise loans during the loan
application process. The incomplete nature of franchise loan data negatively
affected the Agency's ability to assess whether franchise loans presented a higher
than average risk of financial loss and identify potential risks within certain
franchise brands. This data reliability issue could also negatively impact decisions
made by lenders for loan approval and prospective borrowers that are considering
franchise opportunities, as well as the ability of franchisors to attract new
investors.



2 Huntington Learning Centers, Incorporated, a Delaware Corporation
3 $2.1 million represents SBA's share of the outstanding balance. The gross amount outstanding was $2.8 million.
4 SOP 50 51 2B; Chapter 13 (an SOP that applied to the loans at the time that they were approved) discusses in detail SBA's

  obligation to honor its guaranty and purchase the guaranteed portion of defaulted loans.
                                                                                      3


We recommend that the Agency: (1) seek recovery of the loan guaranties, less any
recoveries, paid in connection with the 10 defaulted loans; (2) flag all Banco
Popular HLC loans in SBA's Loan Accounting System to ensure the identified
underwriting deficiencies are considered in the event of future default; and
(3) implement a plan to ensure the completeness and accuracy of data pertaining to
existing franchise loans and those made in the future.

SBA agreed to (1) review the 10 defaulted loans and seek recovery as appropriate,
and (2) flag all HLC franchise loans originated by Banco Popular so they will
receive heightened scrutiny if they are submitted for purchase. With regard to
implementing a plan to ensure the completeness and accuracy of franchise data,
the Agency stated it would issue an Information Notice reminding lenders of the
need to provide accurate data, and would incorporate our findings into its quality
control procedures. SBA, however, did not address a plan to improve the quality
of franchise loan data and therefore its response was not sufficient to fully address
our last recommendation.

BACKGROUND

Section 7(a) of the Small Business Act authorizes SBA to guarantee loans made
by lenders to small businesses. Existing SBA regulations require lenders to
comply with Agency loan program requirements. 13 CFR 120.10 defines loan
program requirements as those imposed upon lenders by statute, SBA regulations,
any agreement the lender has executed with SBA, SBA's Standard Operating
Procedures (SOP), official SBA notices and forms applicable to 7(a) and 504
programs, and loan authorizations. Many of the small businesses that receive SBA
loans are franchise-based companies which include various industry types (e.g.,
fast food restaurants, automotive shops, and health and fitness centers). These
companies are independently operated by franchisees that have been granted the
right to distribute the products or use the trademarks of franchisors in exchange for
franchisor fees.

The Agency's Office of Capital Access (OCA) is responsible for delivering SBA's
loan programs and monitoring the performance of lenders. Within OCA, the
Office of Financial Assistance (OFA) is responsible for loan processing, servicing
and liquidation functions, and for providing the policies and procedures that
lenders use to accomplish these tasks.

The Agency's Loan Accounting System captures data on all of its guaranteed
loans including franchise loan activity. The Agency's franchise loan statistics are
made available to the lending community and ultimately to the general public.
Consequently, this data may impact decisions made by lenders and prospective
owners regarding franchise investments.
                                                                                                                                        4



In FY 2007, there were 121enders that originated 25 SBA-guaranteed loans for the
acquisition of HLC franchises using PLP procedures. Banco Popular approved 12
of those loans, 10 of which had been transferred to liquidation as of
December 2010. The Agency paid $2.1 million to honor its guaranties on the 10
defaulted loans.

RESULTS

Banco Popular Used Unrealistic Revenue Projections in Assessing Borrower
Repayment Ability

Banco Popular did not adequately assess whether 12 HLC franchise borrowers had
the ability to repay loans totaling $3.8 million. 5 All 12 loans had umealistic
revenue projections. As a result, most of the HLC borrowers defaulted on their
loans and SBA paid $2.1 million when it purchased its guaranties. With one
exception, these loans were made to fund newly formed franchises. The one
remaining loan was for the purchase of an existing HLC franchise.

In accordance with 13 CFR 120.150, applicants must be creditworthy and loans
must be so sound as to reasonably assure repayment considering past earnings,
projected cash flow, future prospects, the ability to repay the loan with earnings
from the business, and the effects of any affiliates. 6 Guidance in effect at the time
of the loans in question, SBA's SOP 50 10 4, required lenders to use realistic
projections of future earnings when historical financial information did not
demonstrate borrower repayment ability. The SOP further required lenders to test
the feasibility of projections against industry averages and historical information
with an explanation for significant deviations.

In FY 2007, a total of 12 HLC franchises received SBA guaranteed loans from
Banco Popular for the acquisition of their businesses. The loans ranged in
amounts from $196,500 to $379,900. Banco Popular approved these loans based
on first- year projections that showed that the franchises would generate revenues
ranging from $483,000 to $650,025. This level of performance is questionable
given that the HLCs, Inc. Franchise Offering Circular, 7 which was effective
April 1, 2006, and reviewed by the lender, showed that the average revenue of



5 The Agency's gnaranty on the loans was 75 percent, for an aggregate SBA share of $2.9 million.

6 Other considerations include character, reputation, and credit history; management experience; strength ofthe business; sufficient

  invested equity; potential for long-term success; and the nature and value of collateral.
7 Uniform Franchise Offering Circulars (UFOC) are used by franchisors to provide pre-purchase information to franchise buyers as

  required by the Federal Trade Commission's Franchise Rule (16 CFR, §436 and §437). Currently known as the "Franchise
  Disclosure Document" based on a 2007 ruling by the Federal Trade Commission.
                                                                                                                                  5


franchises in operation for one or more years was $468,442 in 2005. 8
Nevertheless, the lender expected the newly formed franchises to not only meet
this average, but to exceed it, with generally no explanation for how the businesses
would achieve this level of performance.

Additionally, the lender did not adequately consider other factors impacting the
franchises' first year of performance. For example, one prospective borrower had
nine other tutoring services within a 10-mile radius of the proposed center and yet
the lender still expected the center to exceed the earnings of more established HLC
franchises.

Through interviews and the review of loan files, we further validated the
umealistic nature of the first-year revenue projections. These sources provided
first-year revenue figures ranging from $262,272 to $360,000. For example, we
noted that one of the applicants was a change of ownership in an existing franchise
that averaged revenues of $265,475 for 2005 and 2006. In addition, we reviewed
literature published by the Franchisor that showed that the actual average first-year
revenue for HLC franchises in 2007 was $262,272. 9 The projected revenues of the
12 HLCs approved by Banco Popular exceeded this average by as much as 148
percent. We further substantiated the umealistic nature of the projections when
we interviewed a former operations manager for the HLC Franchisor who told us
that the targeted level of performance for new HLC franchises in FY 2007 was
$360,000 in the first year. See Appendix I for a list of the 12 HLC borrowers with
their projected first-year revenues and the percentage by which their projections
exceeded the actual average revenue for start-up HLC franchises.

Furthermore, the 12 HLCs' projected expenses were generally significantly higher
than the more realistic first-year revenue figures that we identified. These
expenses ranged from $415,585 to $563,032, with fixed expenses averaging more
than $400,000. 10 This means that if the lender had used more realistic first-year
revenue projections, it should have projected that the franchises would operate at a
loss and be unable to repay their SBA guaranteed debts from business cash flow.

We spoke with a vice president at Banco Popular who stated that the only data
obtained from the Franchisor was the UFOC ll - and as such - the lender was
limited to the data reported in that document. According to the vice president,

8  The lender had access to the HLCs, Inc. Franchise Offering Circular, effective April 1,2006, that showed the actual average
  revenues for existing HLC franchises was $468,442 in 2005. A Franchise Offering Circular is the typical document used by
  franchisors for disclosing revenue information pertaining to franchises. The HLCs, Inc. Franchise Offering Circular effective
  April 1,2006, was the most recent circular available when the 12 HLC franchise loans were made.
 9 Huntington Franchise Headlines Volume 88, February 2008.


10 Fixed expenses ranged from $348,064 to $526,504.


"The Uniform Franchise Offering Circular (UFOC) that the vice president was referring to was the HLCs, Inc. Franchise Offering

   Circular, effective April 1, 2006.
                                                                                                                                          6


franchise loans require a lesser degree of due diligence because of the established
business model of franchise systems. The vice president further stated that the
upfront training and marketing assistance in franchise businesses increases the
likelihood that businesses will achieve their projections. Banco Popular ultimately
relied on the borrowers' own statements that their revenue projections had been
vetted against the operations of other HLC franchises. Moreover, the lender's
internal policy did not require that the revenue projections be supported by
calculations or compared to the revenues of similar businesses. The vice president
believed the latter was the responsibility of the borrowers.

If Banco Popular had complied with SBA' s requirements and used revenue
projections that were realistic, the 12 HLC franchise loans should have been
declined due to lack of repayment ability. Of the 12 loans approved, 10 loans with
an aggregated outstanding SBA balance of $2.1 million had been transferred to
liquidation as of December 2010. Four of the 10 loans defaulted within 18 months
of disbursement, and as such, are considered early defaults by SBA's definition. 12
The two remaining loans 13 were current as of May 2011.

During the time that the 12 loans were approved, the lender's loans to start-up
companies were only made under the SBA program. Since that time, the lender
discontinued the practice of making loans to any start-up franchises with or
without an SBA guaranty.

OTHER MATTER

Incomplete Data Impairs SBA's Ability to Monitor Franchise Loans

In our efforts to test the completeness and accuracy of SBA's HLC franchise data,
we queried the name Huntington in the FY 2006 through FY 2009 data that we
obtained from the Agency's loan database. As a result of our analysis, we
concluded that the HLC loan universe was understated by 16 loans, or 17 percent.
We expanded our scope to include six additional franchise brands among those
with the highest purchase rates and number of loans made as of March 2010. We
determined that the number of franchises for these brands was similarly
underreported, as shown in Table 1.

SBA releases its franchise loan data to an industry organization that publishes
reports on SBA's annual franchise performance. This information is made
available to the lending community and the general public. For example, CNN

12   According to SOP 50 51 2(b) "early default" means a default that occurred either prior to final disbursement ofthe loan, or within
     18 months from the date ofthe final disbursement. A default includes an unremedied failure to make one or more payments as
     required by the terms of the note, as well as events that would place a loan in liquidation status.
13
     [FOIAEx.4]
                                                                                                                                   7


Money cited SBA's 10 most popular franchises by loan volume and identified a
number of the best and worst performing franchises based on the Agency's
franchise data. The Agency provides a disclaimer statement about the accuracy of
its franchise data when it shares the data with external parties.

Table 1
                                       Error Rates For 7 Franchise Brands with Incomplete Data
                                               In SBA's Database (FY 2006 - FY 2009)
           Franchise                                               Loans Coded        Loans          New Loan         Error
             Code                    Franchise Narne               in Database       Not Coded        Totals          Rate

             01350             AAMCO TRANSMISSIONS                      105              21             126            0.17

              17998         COLD STONE CREAMERY, INC.                   218              42             260            0.16

             21420               CURVES FOR WOMEN                       104               2             106            0.02

                              HUNTINGTON LEARNING
             39598                   CENTER                              78              16              94            0.17

              52875              MEINEKE CAR CARE                        63              11              74            0.15

             65140                  PLANET BEACH                        102              24             126            0.19

                                        QUIZNOS
             68020                                                      448             118             566            0.21

             Totals                                                 1,118           234                1,352           0.17
            Source: Generated by the OIG usmg SBA loan data for FY 2006 to FY 2009.


FRANdata is a franchise information and research company that maintains SBA's
franchise registry. In a January 2007 report, Study on SEA Loan Performance in
Franchising, FRANdata disclosed the incompleteness of the Agency's franchise
data. Our audit work shows that the issue of under-reported franchise loan data
highlighted in FRANdata's report remains an issue.

In October 2001, the Office of Management and Budget issued guidelines
requiring agencies to adopt a basic standard of quality (including objectivity,
utility, and integrity) as a performance goal and to take appropriate steps to
incorporate information quality criteria into their information dissemination
practices. 14 Furthermore, SBA's Strategic Plan for FYs 2011-2016 contains the
objective of promoting the availability, analysis, and dissemination of the most
current, accurate, and detailed statistics possible on small business.

Incomplete franchise loan data impairs SBA's ability to assess the risks of
franchise loans as compared to non-franchise loans. It also affects the Agency's
ability to identify and take actions regarding individual franchise brands that pose
a risk to the Agency. Further, inaccurate statistics could negatively affect
decisions made by lenders for loan approval and prospective borrowers that are

14   Office of Management and Budget's Guidelines for Ensuring and Maximizing the Quality, Objectivity, Utility and Integrity of
     Information Disseminated by Federal Agencies, October 1,2001.
                                                                                        8


considering franchise opportunities, as well as the ability of franchisors to attract
new investors. SBA management acknowledged the limitations of the existing
database and attributed the errors to lenders who did not input the codes for
franchise loans during the loan application process. The Agency, however, had
not taken action to address this issue at the time of this report.

CONCLUSION

Banco Popular did not adequately assess borrower repayment ability when
originating HLC franchise loans, and SBA paid $2.1 million when it purchased its
guaranties on 10 of these loans. Furthermore SBA's franchise loan data is
incomplete and impairs SBA's ability to monitor franchise loans. This data
reliability issue could also negatively impact decisions made by lenders for loan
approval and prospective borrowers that are considering franchise opportunities,
as well as the ability of franchisors to attract new investors.

RECOMMENDATIONS

We recommend that the Associate Administrator, Office of Capital Access:

   1.	 Seek recovery of the loan guaranties, less any recoveries, paid in
       connection with the 10 defaulted loans and their associated lines of credit.

   2.	 Flag all Banco Popular HLC franchise loans in SBA's Loan Accounting
       System, along with any associated lines of credit, to ensure the identified
       underwriting deficiencies are considered in the event of future default.

   3.	 Improve the quality of franchise loan data by implementing a plan to ensure
       the completeness and accuracy of data pertaining to new franchise loans
       made in the future and correct existing incomplete loan records.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On April 6, 2011, we provided a draft of this report to SBA for comment. On
May 26,2011, SBA provided written comments, which are summarized below and
contained in their entirety in Appendix II. It is not clear from SBA's response
whether it agreed or disagreed with recommendations 1 and 3, but it did agree
with recommendation 2.
                                                                                  9


Recommendation 1

SBA stated that the National Guaranty Purchase Center (NGPC) will review the
10 defaulted loans by July 25,2011 and will seek recovery of all purchase
amounts disbursed if recovery is appropriate under the facts of each case and
consistent with SBA loan program requirements. If the NGPC concludes that
recovery is not warranted, the cases will be referred to the Office of Risk
Management for resolution. These proposed actions are responsive to the
recommendation. However, we also recognize that SBA typically only reviews
early-defaulted loans for weaknesses in a lender's repayment ability analysis.
Given the systemic issue noted in this report and the clear violation of SBA's
policies and procedures by Banco Popular in originating HLC franchise loans, we
believe all 10 defaulted loans should be reviewed with the same heightened
scrutiny and the lender's inadequate repayment ability analysis should be
considered material to the default of these loans.

Recommendation 2

SBA stated it would flag all HLC franchise loans originated by Banco Popular so
they will receive heightened scrutiny if they are submitted for purchase. This
proposed action is responsive to our recommendation.

Recommendation 3

SBA stated it will issue an Information Notice reminding lenders of the need to
provide accurate data to SBA and will specifically mention the necessity of
indicating whether a loan is being made to a franchisee. Additionally, SBA stated
that our audit findings will be incorporated into the Quality Control procedures at
the centers.

SBA's comments were only partially responsive to our recommendation.
Specifically, the response did not address a plan to improve the quality of
franchise loan data. Furthermore, issuing an Information Notice will only help to
obtain more complete and accurate data for new franchise loans and will not
correct the problem for existing loans. Consequently, SBA's proposed actions are
not sufficient to fully address our recommendation and we will work with
management to resolve this issue during the audit follow-up process.

ACTIONS REQUIRED

Please provide your management response for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
                                                                                  10


the date of this report. Your responses should identify the specific actions taken or
planned to fully address each recommendation and the target dates for completion.
We appreciate the courtesies and cooperation of the Office of Capital Access
during this audit. If you have any questions concerning this report, please call me
at (202) 205-6586 or Terry Settle, Director, Credit Programs Group at
(703) 487-9940.
                                                                                                                    11


APPENDIX I. PROJECTED FIRST-YEAR REVENUES OF TWELVE
HUNTINGTON LEARNING CENTERS


                                                                     Projected                   Performance in
                                                                     First-Year                     Excess of
     No.                     HLCName                                 Revenues                        Avera~e15


       1                                                              $ 650,025                          148%
       2                                                              $ 628,200                          140%
       3                                                              $ 543,000                          107%
       4                                                              $ 542,000                          100%

       5                                                              $ 538,000                          105%

       6               [FOIAEx.4]                                     $ 533,000                          103%

       7                                                              $ 523,000                           99%

       8                                                              $514,100                            96%


       9                                                              $ 511,500                           95%

      10                                                              $ 501,000                           91%

      11                                                              $ 490,000                           87%

                                                                      $ 483,000                           84%
      12
       Source: Generated by the OIG using credit memorandums obtained from Banco Popular, and the Franchisor's
       Newsletter, Huntington Franchise Headlines Volume 88, obtained from the HLC Franchisor.




15   The average revenue for new HLCs in 2007 was $262,272 according to Huntington Franchise Headlines Volume 88.
                                                                                   12
APPENDIX II. AGENCY COMMENTS





                       u.S. SMALL BUSINESS ADMINISTRATION
                              WASHINGTON, D.C. 20416

   DATE:       May 26,2011
     TO:       Peter L. McClintock, Deputy Inspector General
               lSI original signed
  FROM:        Grady Hedgespeth, Director, OFA
SUBJECT:       Draft Report on the Audit of Franchise Loan Origination Practices
               Project No. 10012

  Thank you for the opportunity to review this draft report. We appreciate the role
  that the Office of Inspector General (OIG) plays in assisting management in
  ensuring that SBA loan programs are effectively managed. Set forth below are our
  responses to the OIG recommendations in the draft audit report.

     1.	 Seek recovery of the loan guarantees, less any recoveries, paid in
         connection with the 10 defaulted loans and their associated lines of
         credit.

  RESPONSE: The National Guaranty Purchase Center (NGPC) will review the 10
  defaulted loans within 60 days of this response, and will seek recovery from the
  lender of all purchase amounts disbursed if recovery is appropriate under the facts
  of each case and consistent with SBA loan program requirements. IfNGPC
  concludes that recovery on any of the loans is not warranted, we will refer these
  loans to the Office of Risk Management for resolution in accordance with
  procedures previously agreed to by OIG.

     2.	 Flag all Banco Popular HLC (Huntington Learning Center) franchise
         loans, in SBA's loan accounting system, along with any associated lines
         of credit to recognize the identified underwriting deficiencies in the
         event of future default.

  RESPONSE: We will flag all HLC franchise loans originated by Banco Popular
  so they will receive heightened scrutiny if they are submitted to SBA for purchase.
  This will be done within 60 days of this response.
                                                                                 13


   3.	 Improve the quality of franchise loan data by implementing a plan to
       ensure the completeness and accuracy of data pertaining to new
       franchise loans made in the future and correct existing incomplete loan
       records.

RESPONSE: We will issue an Information Notice reminding lenders of the need
to provide accurate data to SBA in the loan origination process, and will
specifically mention the necessity of indicating whether a loan is being made to a
franchisee. Also, the findings of this audit will be incorporated in the Quality
Control procedures at the centers.

Again, thank you for the opportunity to review the draft report. We hope to
continue working with OIG to address these issues. Please let us know if you need
additional information or have any questions regarding our response.
